 Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





THE CHICAGO REGIONAL COUNCIL OF 

   CARPENTERS WELFARE FUND 

PROPERLY CLAIMED EARLY RETIREE 

     REINSURANCE PROGRAM 

        REIMBURSEMENTS



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                       Sheri L. Fulcher

                                                  Regional Inspector General 


                                                         December 2012

                                                         A-05-11-00109 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov



 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                            INTRODUCTION 


BACKGROUND

Early Retiree Reinsurance Program
The Patient Protection and Affordable Care Act, P. L. No. 111–148, and the Health Care and
Education Reconciliation Act of 2010, P.L. No. 111–152 (together, the Affordable Care Act),
enacted on March 23, 2010, established the Early Retiree Reinsurance Program (ERRP). The
ERRP is a temporary reinsurance program designed to reimburse participating employment-
based plans (plan) for a portion of the cost of providing health insurance to early retirees aged 55
or older and to certain eligible family members. The Center for Consumer Information
Insurance Oversight (CCIIO), a part of the Centers for Medicare & Medicaid (CMS) within the
Department of Health and Human Services, is responsible for program administration.1

The Affordable Care Act § 1102(e) appropriated $5 billion in funding for the ERRP. The ERRP
began in October 2010 and is scheduled to end on January 1, 2014. As of January 2012, ERRP
reimbursements totaled nearly $4.7 billion.

Federal Requirements and Center for Consumer Information Insurance Oversight
Guidance

To participate in the ERRP, the plan and its sponsor must meet the requirements of 45 CFR part
149, and the plan sponsor’s application to participate in the program must be approved by the
CCIIO.2 , Early retirees must be individuals who are (1) aged 55 or older, (2) not eligible for
health insurance coverage under Medicare, and (3) not active employees eligible for coverage
under an employer’s health insurance plan (section 1102(a)(2)(C) of the Affordable Care Act).

Claims submitted by plan sponsors for ERRP reimbursement must be based on actual costs
incurred for providing health benefits to early retirees and their spouses, surviving spouses, and
dependents (the Affordable Care Act § 1102(c)(1)(B)).3 ERRP reimbursement is limited to 80
percent of the health benefit costs for all claims incurred by the plan during the plan-year. To be
eligible for reimbursement, claims for health benefit costs attributable to each individual early
retiree must be between $15,000 (cost threshold) and $90,000 (cost limit) (45 CFR §§149.100
and 149.115).
1
   Until December 2011, the Office of Consumer Information and Insurance Oversight within the Department of
Health and Human Services administered the program. The name CCIIO used throughout this report refers to
CCIIO and its predecessor.
 
2
   Generally, the regulation uses the term “sponsor” when referring to the entity that applies for and receives
reimbursement under the ERRP and uses the term “employment-based plan” when referring to the health benefits
arrangement that the plan sponsor must offer (75 Fed. Reg.24451 (May 5, 2010)).
 
3
   The term ‘‘health benefits’’ includes medical, surgical, hospital, prescription drug, and other benefits as
determined by the Secretary of Health and Human Services, whether self-funded or delivered through the purchase
of insurance or otherwise (section 1102(a)(2)(A) of the Affordable Care Act). The CCIIO guidance Claims
Ineligible for Reimbursement Under the Early Retiree Reinsurance Program (Sept. 28, 2010) clarifies that CCIIO
provides ERRP reimbursement only for items and services for which Medicare generally reimburses.


                                                       1

Section 1102(c)(4) of the Affordable Care Act requires plans to use ERRP reimbursement to
reduce the health benefit costs of the plan. This section also requires CCIIO to develop a
mechanism to monitor the appropriate use of ERRP reimbursement. In the preamble to the
interim final rule (75 Fed. Reg. 24456 (May 5, 2010)) that implemented ERRP, CCIIO states that
plan sponsors must “…maintain the level of effort in contributing to support their applicable plan
… [as it did before its participation in the ERRP]. Otherwise, plan sponsors might circumvent
the prohibition on using the program funds as general revenue….” We refer to this as the
maintenance-of-contribution requirement.

According to CCIIO’s Guidance on Complying With the Prohibition on Using Early Retiree
Reinsurance Program Reimbursements as General Revenue (Aug. 19, 2011), a plan is presumed
to have properly used its ERRP reimbursement in a given year if the plan meets the maintenance-
of-contribution requirement. To meet that requirement, the plan’s contribution toward the health
benefit cost for the year must be equal to or more than the contribution it made in its baseline
period.4

The Chicago Regional Council of Carpenters Welfare Fund

The Chicago Regional Council of Carpenters Welfare Fund (the Fund) offered health benefits
(consisting of medical and prescription drug benefits) funded by participating employer
contributions and premiums for eligible employees, retirees, and their dependents. The Fund is
the plan sponsor. 

In July 2010, CCIIO approved the Fund’s application for participation in the ERRP.5 The Fund
stated in its application that the ERRP reimbursement would become a plan asset, and the ERRP
reimbursement would be used to offset any expected increases in health benefit plan costs and
premiums. As of March 2011, CCIIO had reimbursed the Fund $1,611,366 for health benefit
costs that the Fund had incurred on behalf of 281 early retirees from July 1, 2009, through
December 31, 2010.




4
  The Guidance on Complying With the Prohibition on Using Early Retiree Reinsurance Program Reimbursements
as General Revenue specifies that plan sponsors may use any of the following periods as their baseline period for
determining their contribution level: (1) the plan sponsor’s most recent 12-month plan-year that ended before the
date the plan sponsor submitted its ERRP application; (2) a period consisting of up to 5 of the plan sponsor’s most
recent consecutive 12-month plan-years, including the plan sponsor’s most recent 12-month plan-year that ended
before the plan sponsor submitted the ERRP application; and (3) a single 12-month plan-year for which the plan
sponsor’s budget for health benefits and/or health benefit premiums was finalized or for which a collective
bargaining agreement was ratified before June 1, 2010.
5
  CCIIO began accepting applications of plan sponsors for participation in the ERRP on June 29, 2010 (CCIIO press
release, June 29, 2010).

                                                         2

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the claims that the Fund submitted to CCIIO for
ERRP reimbursements and the Fund’s use of the reimbursements were in compliance with
Federal requirements and CCIIO guidance.

Scope

Our review covered early retiree claims for part of 2 plan-years from July 1, 2009, through June
30, 2010, and from July 1, 2010, through December 31, 2010, for which the Fund received an
ERRP reimbursement of $1,611,366.6 We reviewed only those internal controls necessary to
achieve our objective.

We performed our fieldwork at Chicago Regional Council of Carpenters Welfare Fund in
Chicago, Illinois, from August 2011 through November 2011.

Methodology

To accomplish our objective, we:
    reviewed applicable Federal law and regulations;

    	 interviewed the Fund’s officials to obtain an understanding of their policies and 

       procedures related to ERRP; 


    	 reviewed the Fund’s policies and procedures related to claim processing and employee
       eligibility for health and retirement benefits;

    	 determined whether the claims submitted by the Fund to CCIIO were for eligible early
       retirees by

             o	 obtaining early retiree lists that the Fund to CCIIO and early retiree list response
                files that CCIIO returned to the Fund;




6
  Once an application was approved, a plan sponsor was allowed to apply for reimbursement for costs incurred for
plan-years that started before June 1, 2010 as long as they ended after June 1, 2010 (for example, calendar year 2010
plans) (75 Fed. Reg. 24457 (May 5, 2010)). If a plan-year began before June 1, 2010, and ended after that date, the
amount of claims for services provided before June 1, 2010, could be counted toward the threshold. However, only
the amount of claims for services provided on or after June 1, 2010 that exceeded the threshold would be eligible for
ERRP reimbursement (45 CFR §149.105).


                                                         3

             o	 comparing the Social Security numbers of 281 early retirees who participated in
                ERRP during our audit period to Medicare eligibility data from Medicare’s
                Enrollment Database (EDB);7 and

             o	 verifying the employment status, health benefit and retirement eligibility status,
                and spouse or dependent status documented in the Fund’s electronic system files
                for the 281 early retirees;

     	 determined whether the claims submitted by the Fund to CCIIO were for the allowable
        health benefit costs by

             ○	 comparing procedure codes on the claims that the Fund submitted to CCIIO
                against the excluded Common Procedure Terminology (CPT) and Healthcare
                Common Procedure Coding System (HCPCS) codes listed in CCIIO guidance8
                and

             ○	 recalculating total health benefit costs and reimbursable costs between cost
                thresholds and cost limits for each of 281 early retirees;

     	 determined whether the Fund used the ERRP reimbursement to offset any increases in its
        health benefit plan cost and premiums by

             ○	 using a method specified in CCIIO guidance 9 to compare the Fund’s per-capita
                contributions10 for each of the two plan-years (July 1, 2009, through June 30,
                2010, and July 1, 2010, through June 30, 2011) to the Fund’s average per-capita
                contributions for its baseline period;11

             ○	 reviewing accounting records and bank statements of the Fund to determine how
                the Fund used the ERRP reimbursements; and

7
  Medicare’s EDB is the authoritative source for all Medicare entitlement information. The EDB contains
information on all individuals entitled to Medicare, including demographic information and enrollment dates.
8
 The CCIIO guidance Claims Ineligible for Reimbursement Under the Early Retiree Reinsurance Program (Sept.
28, 2010) and Coding Details for Ineligible Services Under Medicare Which Will Apply to ERRP (July 18, 2011)
specified CPT and HCPCS codes for services not eligible for reimbursement under ERRP.
9
  The CCIIO’s Guidance on Complying with the Prohibition on Using Early Retiree Reinsurance Program
Reimbursements as General Revenue (Aug. 19, 2011) specifies that one of the following four methodologies can be
used for determining compliance with the maintenance-of-contribution requirement: (1) using the aggregate
spending trend percentage; (2) using the aggregate spending trend total dollars; (3) using the per-capita spending
trend percentage; and (4) using the per-capita spending trend total dollars.
10
   The per-capita contribution is the average amount of health benefit costs that the plan sponsor incurred per plan
recipient. 
 
11
   The Fund used 5 consecutive plan-years from July 1, 2004, through June 30, 2009, as its baseline period. See
footnote 4 for various periods that a sponsor can use as its baseline period.
 

                                                          4

             ○	 reviewing the Board of Trustees minutes from September 2008 through August
                2011 to determine how it intended to use the ERRP reimbursement; and

     	 discussed the results of our review with the Fund officials and CCIIO officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                            RESULTS OF AUDIT

The claims that the Fund submitted to CCIIO for ERRP reimbursement during our audit period
and the Fund’s subsequent use of the reimbursements complied with Federal requirements and
guidance. The claims were based on allowable costs of $6,434,931 that the Fund expended
within the plan-years for the health benefits provided to 281 eligible early retirees and their
family members, of which $2,014,208 were attributable to the costs between the cost threshold
and the cost limit.12 On the basis of such claims, we determined that CCIIO appropriately
reimbursed the Fund $1,611,366 for 80 percent of the costs between the cost threshold and the
cost limit. Because the Fund’s per-capita contributions of $3,533 and $3,129 to its plans for the
plan-years ended June 30, 2010, and June 30, 2011, exceeded the per-capita contribution of
$2,794 that the Fund had made to its plan during its baseline period, the Fund met the use of
reimbursement requirement in accordance with CCIIO’s guidance.13 We are not submitting any
recommendations to the Fund.

                                             OTHER MATTERS

We noted a weakness in the CCIIO guidance. It addresses section 1102(c)(4) of the Affordable
Care Act, which prohibits the use of ERRP reimbursements as general revenue and requires
CCIIO to develop a mechanism to monitor the appropriate use of reimbursement payments. In
accordance with the guidance, a plan has used its reimbursements appropriately if it meets the
maintenance-of-contribution requirement. Because the Fund met the maintenance-of-
contribution requirement, all of its ERRP reimbursements were presumed, by the guidance, to
have been used appropriately. This presumption is the weakness we found in the guidance. The
Fund placed the ERRP reimbursements in a revenue pool from which it paid various Fund
expenses. Because the Fund’s accounting records could not match a paid expense to a specific
12
   The CCIIO’s reimbursement is limited to 80 percent of the portion of the health benefit costs attributable to the
claims between $15,000 (cost threshold) and $90,000 (cost limit) for plan-years that start on any date before October
1, 2011 (45 CFR §§149.100 and 149.115).
13
  To demonstrate that the Fund met the use of reimbursement requirement by passing the maintenance-of-
contribution test, the Fund used the per-capita spending trend total dollars methodology and the 5-year period ended
June 30, 2009, as its base year period. See the CCIIO guidance Complying with the Prohibition on Using Early
Retiree Reinsurance Program Reimbursements as General Revenue (Aug. 19, 2011) for various methodologies that
can be used for the maintenance-of-contribution test. 

                                                         5

revenue source, we could not determine whether ERRP reimbursements were used as general
revenue to pay nonhealth-related expenses of administrative costs, liability insurance, and
pensions. Accordingly, the maintenance-of-contribution requirement may not always prevent
such reimbursements from being used as general revenue. We discussed this issue with CCIIO
officials.




                                              6

